U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

December 8, 2020
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

Eric Troy Snell v. United States of America,
S.Ct. No. 20-6336

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on November
10, 2020, and placed on the docket on November 16, 2020. The government’s response is due
on December 16, 2020.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including January 15, 2021, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Jeffrey B. Wall
Acting Solicitor General
cc: See Attached Service List

20-6336
SNELL, ERIC TROY
USA

MICHAEL FRANCIS SMITH
SMITH APPELLATE LAW FIRM
1717 PENNSYLVANIA AVENUE, NW
SUITE 401
WASHINGTON, DC 20006
SMITH@SMITHPLLC.COM

